PRINCE McCOY,

No. 20-31
Petitioner,

v.
TAJUDEEN ALAMU
Respondent.

CERTIFICATE OF SERVICE
I hereby certify that, pursuant to Supreme Court Rule 29.5(a), a copy of the
Reply in Support of Certiorari was sent to the U.S. Supreme Court by first class
mail and a copy was sent to counsel for Respondent by first class mail on
December 29, 2020.
Kyle Hawkins
Office of the Attorney General, Office of the Solicitor General
P.O. Box 12548
Austin, TX 78711
(512) 936-1700
/s/ Samuel D. Weiss
Counsel of Record

